<html>
<title> - BUILDING GREEN, SAVING GREEN: CONSTRUCTING SUSTAINABLE AND ENERGY- EFFICIENT BUILDINGS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





   BUILDING GREEN, SAVING GREEN: CONSTRUCTING SUSTAINABLE AND ENERGY-
                          EFFICIENT BUILDINGS

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                           Serial No. 110-37




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  61-727                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  






                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative of Congress from the State 
  of Oregon, opening statement...................................     6
    Prepared Statement...........................................     8
Hon. John Sullivan, a Representative of Congress from the State 
  of Oklahoma, opening statement.................................    10
Hon. Hilda Solis, a Representative of Congress from the State of 
  California, opening statement..................................    10
Hon. Jay Inslee, a Representative of Congress from the State of 
  Washington, opening statement..................................    11
Hon. Emanuel Cleaver II, a Representative of Congress from the 
  State of Missouri, prepared statement..........................    13
Hon. Marsha Blackburn, a Representative of Congress from the 
  State of Tennessee, prepared statement.........................    15

                               Witnesses

Hon. Gavin Newsom, Mayor, City of San Francisco, California......    17
    Prepared Statement...........................................    20
    Answers to submitted questions...............................    93
Mr. Kent Peterson, President, American Society of Heating, 
  Refrigerating and Air Conditioning Engineers...................    29
    Prepared Statement...........................................    32
    Answers to submitted questions...............................   104
Mr. Edward Norton, Trustee, Enterprise Foundation................    40
    Prepared Statement...........................................    44
    Answers to submitted questions...............................   117
Ms. Michelle Moore, Senior Vice President for Policy and Market 
  Development, U.S. Green Building Council.......................    53
    Prepared Statement...........................................    56
    Answers to submitted questions...............................   136
Mr. Tony Stall, Vice President of Marketing, Dryvit Systems, Inc.    71
    Prepared Statement...........................................    74

 
   BUILDING GREEN, SAVING GREEN: CONSTRUCTING SUSTAINABLE AND ENERGY-
                          EFFICIENT BUILDINGS

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:03 p.m., in Room 
2358A, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Cleaver, Sensenbrenner, and Sullivan.
    Staff Present: Joel Beauvais.
    The Chairman. Welcome, ladies and gentlemen, to the Select 
Committee on Energy Independence and Global Warming.
    Today's hearing is a most important hearing because it 
deals with an issue that most people aren't really aware of. 
Because if you ask most people what contributes up to one-half 
of U.S. greenhouse gas emissions, they will likely say 
automobiles, SUVs. But the truth is as plain as the wall that 
each of us faces right now: The building sector is responsible 
for up to 48 percent of our Nation's emissions. On a local 
level, buildings can account for an even higher percentage of 
emissions. Seventy-eight percent of Boston's heat-trapping 
gases are attributable to buildings.
    Energy-efficient buildings must be part of a comprehensive 
fight against global warming. Efficient design, low-emission 
construction materials, and decreased energy use in buildings 
can combat global warming and simultaneously reduce the rising 
costs of lighting, heating and cooling structures.
    Energy efficiency in buildings is only a starting point. A 
truly ``green'' building should help preserve natural 
resources. Water use should be minimized. Construction 
materials should be nontoxic and travel shorter distances. 
Appliances and furnishings should use less energy and fewer 
toxic chemical compounds. Most importantly, we must ensure that 
all buildings receive this treatment, whether they are new or 
already built, commercial or residential, public or private.
    Though measures to improve building efficiency can cost an 
additional $1 to $5 per square foot, consumers could get a good 
return on their investment. The average green building can save 
25 to 30 percent more energy than a traditional one. The 
overall economic and environmental benefits of more efficient 
buildings are clear.
    However, the competing interests of the building sector can 
obscure the long-term benefits. A developer may have concerns 
about recovering the initial costs of green design or energy-
efficient features. A commercial tenant may not want to pay for 
efficiency upgrades on a 5-year lease. A homeowner may not have 
the initial capital needed to improve home efficiency, or may 
not be planning to be in the house for another 10 years to get 
the full return on investment.
    In a recent survey, only 7 percent of the public identified 
buildings as a major source of global warming emissions. Today, 
we hope to change that perception by discussing various 
approaches to improving building efficiency.
    The witnesses are collectively utilizing innovative local 
approaches, materials, mandatory codes and voluntary guidelines 
to reduce this massive source of emissions. Mayor Newsom has 
sustained and implemented a myriad of green building 
initiatives, among other notable environmental efforts in San 
Francisco. The Engineering Society here today, whose mission is 
to advance energy-efficiency technology, they have developed 
building and energy codes used by local, State and Federal 
governments. And the U.S. Green Buildings Council has developed 
LEED, one of the most commonly used certification programs for 
a green building. Enterprise Community Partners now helps low-
income housing, buildings with the tightest construction 
budgets, become sustainable in a cost-efficient manner. And we 
will also hear from Dryvit, a corporation working to improve 
the efficiency of buildings with what they call Outsulation.
    As a final note, I would also add that three of you are 
actually seated, for a change, in environmentally friendly 
chairs. These chairs were built from recyclable materials, 
created using alternative energy, and can be nearly fully 
recycled as well.
    We thank each of you for being here, and we look forward to 
your testimony.
    Let me turn and recognize the ranking member of the 
committee, the gentleman from the State of Wisconsin, Mr. 
Sensenbrenner.
    [The information follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Today's hearing on green buildings touches on many of the 
same issues the select committee examined during last week's 
hearing on energy efficiency. For the most part, policies that 
promote green buildings is simply policy to promote efficiency 
in building, construction, maintenance, and operations. There 
are several reasons to encourage more productive uses of 
energy. Improved efficiency gives us the ability to reduce 
greenhouse gas emissions in the near term without enacting 
punishing regulations that would cripple our economy.
    According to the U.S. Green Building Council, buildings 
consume 40 percent of the energy used in the United States. 
That is more than both the industrial and transportation 
sectors. Buildings are responsible for 39 percent of 
CO<INF>2</INF> emissions and 71 percent of electricity 
consumption. As Tony Stall from Dryvit Systems will tell us 
today, 80 percent of the buildings constructed before 1960 are 
poorly insulated. Energy literally seeps through the walls of 
these buildings.
    It is clear that increasing energy efficiency in buildings 
should be a high priority in our energy policy, but it 
shouldn't be just a Government priority. With the potential 
savings in cost that these energy savings would create, I think 
that many building owners would want to make these 
improvements.
    Mr. Stall says in his testimony that his company's 
insulation product will help lower annual energy costs by 10 to 
20 percent. The Green Building Council says that energy-
efficient buildings could generate up to a 9 percent decrease 
in operating costs, a nearly 8 percent increase in building 
values, and a more than 6 percent increase in return on 
investment. Who wouldn't want to reap those kinds of savings?
    Unfortunately for my good friends in the majority party, 
their legislation to date has not been where their words are. 
In the energy bill passed during the previous Congress, there 
were certain tax credits for energy improvements that many 
people around the country have taken advantage of. I am one of 
those that did that. I replaced the furnace in my Menomonie 
Falls, Wisconsin, condominium, and I have been able to recoup, 
in just a year and a half, the cost of the additional furnace. 
We have not had global warming in Wisconsin. We had one of the 
coldest and snowiest winters in the last 30 years there.
    However, all of these credits expired at the end of last 
year. And nobody facing bad gas bills, bad electric bills or, 
if they heat with fuel oil, extremely bad fuel oil bills has 
been able to do the type of work that has been given the tax 
credit, because they don't know whether the tax credit will be 
there when the time comes to file their 2008 tax returns.
    Now, I am told that the majority party is going to put an 
extender bill on the floor next week. I hope it is not stuck 
with a whole lot of other things that don't relate to energy 
and R&D tax credit. But the fact is that we have had almost 5 
months slip by with no tax credits for doing these good things 
on the books. And that is the responsibility of the majority 
party, and they ought to put their legislation where their hot 
air has been.
    Now, last week I said that energy efficiency can produce 
great results when encouraged, but, when mandated, these 
policies have the same effect as a tax. Please note that I am 
talking about tax breaks rather than higher taxes directly or 
indirectly. And I think the same principle applies with 
policies to encourage green buildings. The amount of savings 
generated by energy-efficient buildings should be encouragement 
enough for building owners to make these changes. I also think 
that the Federal Government can help through R&D funding and 
tax credits. Additionally, establishing industry standards will 
go a long way toward ensuring that buildings, old and new, are 
as energy-efficient as possible.
    However, the Government should not take it upon itself to 
be issuing mandates for green buildings, because that will be a 
tax for many. Not only that, I certainly don't have confidence 
that the Government regulators will mandate the best, most 
effective energy solutions. It is not a stretch to think that 
these regulations will be much less efficient than the 
buildings that they seek to manage; witness our off-again/on-
again tax credit policy.
    I think that a mechanism already exists in the U.S. economy 
to encourage energy efficiency in buildings. The potential 
savings that green buildings create, coupled with the rising 
cost of energy, creates a compelling incentive for building 
owners to improve the efficiency of their structures.
    When it comes to efficiency, free-market forces are far 
more efficient than regulations in turning buildings green. 
While the regulations may make buildings more efficient, only 
the free market and a more enlightened tax policy can make 
buildings and their owners' wallets greener at the same time.
    Thank you.
    The Chairman. Thank you.
    Again, witnesses, welcome to the debate here. You are 
arriving at a historic time.
    The Chair now recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you.
    I do want to assure my good friend from Wisconsin that we 
will be voting for the fourth time on the extenders, that has 
passed the House three times already, and I hope that we will 
have, finally, some help on the part of the administration and 
the Senate.
    I take modest exception with the notion that regulation 
from the Government plays no role. Look how the brilliant 
market forces have encouraged our friends in Detroit to keep 
pace with auto efficiency standards. Not. They didn't change 
for 30 years. We finally re-established them this last year, 
which I think we would all be better off had we continued to 
move forward.
    We need a balance between regulatory process and free 
market. We are going to hear from California, where there are 
some great initiatives that have taken place in terms of the 
building codes.
    I am hopeful that we, as a committee, spend more time on 
this, because we are going to be replacing almost 200 billion 
square feet of new offices, stores and other nonresidential 
construction, and we are going to freeze that carbon footprint 
in place for 50 or 100 years or more.
    I am pleased with what we have done in our community. I am 
hopeful we still get out to Portland to see what we have done 
in terms of some of these green building initiatives.
    I would like to enter into the record the Green Building 
Initiative that the Portland Green Building--Green Globe's 
rating tool that I think has some merit, because we have seen 
that it makes a difference in our community.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Blumenauer. But I would hope that there are two things 
that we could focus on with the committee. One deals with the 
location. Yes, businesses are critical, but if you have to burn 
a gallon of gas to go to lunch, we are in trouble. And we need 
to coordinate the green building with the green location, 
location efficiency.
    Last but not least, I am very interested in working with 
this committee and our witnesses about what the Federal 
Government does to lead by example. We are the largest consumer 
of energy in the world; we are the largest manager of 
infrastructure. The Federal Government has an inventory of 300 
million square feet, scattered in 60 locations across the 
country.
    If we get serious, if we make a commitment that we are not 
going to build, buy, lease or rent anything that isn't green-
certified with a twist in 2 years, it will have a 
transformational effect and, I think, help bring to pass what 
our witnesses will be talking about much sooner.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman's time has expired.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman. Thank you for 
holding this important hearing today on green buildings.
    I look forward to hearing from our witnesses, and I 
appreciate you being here, especially Tony Stall, from Dryvit, 
a leader in green building techniques. I am proud to have a 
Dryvit manufacturing facility in Sand Springs, which is located 
in Oklahoma's 1st Congressional District.
    Last August, I visited this facility and was able to meet 
with many of the hardworking men and women that make this green 
technology possible. And it really is a fascinating technology.
    Dryvit Systems began manufacturing exterior insulation and 
finish systems in 1969 and was the first company to do so in 
the United States. Today, more than one in every 11 commercial 
buildings in the United States features Dryvit on its exterior.
    Companies like Dryvit are innovating technology for both 
commercial and residential buildings so that these properties 
can become more environmentally friendly. In fact, homes that 
use the Dryvit technology on their exterior can save over 40-
percent per year on their heating and cooling consumption.
    I look forward to the intriguing discussion regarding green 
buildings during today's hearing. And I yield back the balance 
of my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you, Mr. Chairman.
    And I would like to congratulate you for introducing us to 
the new recyclable chairs that are here in our hearing room. I 
hope that members will take that to heart, and hopefully we 
will be able to have a demonstration of our own to see how they 
fit. Because, lately, the chairs that we do sit in are very 
uncomfortable and take up a lot of space.
    With that, Mr. Chairman, I would like to thank you for 
having the hearing. This is a very important topic that we need 
to discuss here.
    And I am very concerned about what is happening in our 
schools, some of our school buildings, particularly in low-
income areas. We have a lot of Title I-funded schools that are 
found not just in urban and suburban areas but also in rural 
America. And we would like to see more opportunity so that the 
greening of America can also happen in our schoolhouses for 
low-income and under-represented children.
    But I would like to thank also our mayor, Gavin Newsom, for 
being here from San Francisco, a leader in the green movement. 
And also I want to recognize the City of Los Angeles. We are 
slowly getting together the pace where we understand the 
importance of what this all means. And in communities like 
mine, in east Los Angeles, where a heavy burden is placed on 
energy consumption and air pollution, many of the contaminants 
that affect our communities are a direct result of greenhouse 
gas emissions and all those negative things that have been 
going on for years that we have been struggling to try to clean 
up.
    But, more importantly, I think where we live and work, in 
particular in low-income communities--we have most of the 
blighted areas. We have many warehouses that could be 
retrofitted. We could find, I think, ways of even helping to 
train our workforce to get into these jobs.
    And that is something that some of us have worked very 
hard, and I know the chairman has, in terms of helping us also 
retool those individuals that live in our community through the 
Green Collar Job Act. And that is helping to invest in our 
workforce so that we have enough people that are going to be 
out there placing and installing the solar panels and also 
working in renewable energy.
    So those are things that I care about and I know many 
members of the caucuses that I work with are very interested in 
hearing about. So I want to thank all of you for being here, 
and look forward to hearing your testimony.
    Thank you.
    The Chairman. Thank you.
    The gentlelady's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you. I appreciate this hearing.
    I just want to note three groups I met with this morning in 
my office. It was just an accident that I met with these folks.
    First, I met with some folks from utilities. We had one of 
the presidential candidates out in Seattle yesterday who is 
urging a massive expansion of nuclear power as part of our 
baseload; correctly pointed out that it was zero 
CO<INF>2</INF>-emitting. But this utility person reminded me 
that in every single city and every single State and in every 
single circumstance, efficiency in reducing load is always 
cheaper than nuclear power, virtually any other system of 
generation we have. And it was interesting to me, talking to a 
person on the front lines, a person really in the utilities, 
whose job it is to deliver electrons, the first thing out of 
this person's mouth was: Efficiency first, because that is 
where it's always cheaper. And this was right before this 
hearing.
    The second group I met with were sheet metal contractors, 
and they told me that efficiency in building is the best job-
creation system we have in America, because it is not in China, 
it is here. When we build efficient housing and green 
buildings, those jobs are right here. They are not going to 
China. They are right here. This is the one thing you can 
assure, if you want a stimulus plan, spend money on 
retrofitting weatherization and clean and efficient utilities 
and heating and cooling systems.
    The third group was the Environmental Entrepreneurs 
Association. Some people may not have heard about this group, 
but this is a group with several hundred members of companies 
across America whose job it is to grow jobs in clean energy. 
And these people are growing like gangbusters. And a 
significant portion of them are invested in this type of 
technology you are talking about, including findings ways--and 
here is a great one--to sequester carbon in building materials. 
There is a company out there, whose name escapes me, that is 
close to finding a way to sequester carbon dioxide in cement. 
And the scale of this is much larger than one would think.
    So here are three groups who wandered by a lone 
Congressman's office this morning, all of whom see economic 
growth potential in what you all are going to talk about. 
Thanks for coming.
    The Chairman. Great. Thank you.
    The gentleman's time has expired.
    All time for opening statements from the members has been 
completed. And we now turn and recognize our witnesses for 
their testimony.
    [The prepared statement of Mr. Cleaver follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    [The prepared statement of Ms. Blackburn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. First, we will hear from Mayor Gavin Newsom, 
who is serving his second term as the Mayor of San Francisco. 
He is working to meet Kyoto Protocol targets through a variety 
of ways, including green buildings. San Francisco has developed 
energy ordinances, initiatives to build to LEED and other green 
standards.
    And I am also pleased to announce that Ameresco, an energy-
efficiency company in my congressional district up in Boston, 
was awarded a contract to green the San Francisco Housing 
Authority.
    And, Mayor Newsom, we are very honored to have you here 
with us today. Whenever you are ready, please begin.

STATEMENTS OF HON. GAVIN NEWSOM, MAYOR, CITY OF SAN FRANCISCO, 
 CALIFORNIA; MR. KENT PETERSON, PRESIDENT, AMERICAN SOCIETY OF 
  HEATING, REFRIGERATING AND AIR-CONDITIONING ENGINEERS; MR. 
  EDWARD NORTON, TRUSTEE, ENTERPRISE FOUNDATION; MS. MICHELLE 
MOORE, SENIOR VICE PRESIDENT FOR POLICY AND MARKET DEVELOPMENT, 
U.S. GREEN BUILDING COUNCIL; MR. TONY STALL, VICE PRESIDENT OF 
                MARKETING, DRYVIT SYSTEMS, INC.

                   STATEMENT OF GAVIN NEWSOM

    Mr. Newsom. Thank you, Mr. Chairman. And thank you for this 
opportunity. And I appreciate, to Ranking Member Sensenbrenner, 
the debate and the passion and conviction that you have all 
demonstrated in your opening remarks. This is a very exciting 
topic, from my perspective, and an exciting time, and I 
appreciate all your leadership and your conviction and your 
constancy on this issue.
    Green buildings--you said it, Congressman Markey, at the 
top--this is one of the areas where we are not focusing enough 
attention. And most people are not familiar with the costs 
associated, not only with the operation of buildings, but the 
construction and demolition of buildings, as it relates to the 
environment.
    In San Francisco, we began over a decade ago and became one 
of the first big cities in the United States of America to 
require, to legislate all of our municipal buildings to be 
built to LEED certification. At the time, people thought, 
again, another typical San Francisco idea, San Francisco 
values, the sky is going to fall in, the world is going to come 
to an end, major tax increases, companies are going to run out 
of San Francisco. We heard it all.
    The reality is it couldn't have been further from the 
truth, and we are quite prescient now, for the same reasons the 
ranking member said: We are paying less in energy bills, we are 
paying less in insurance. And another big point I want to make 
here today: Fireman's Fund and others are charging less for 
insurance for some of our buildings that the city was wise 
enough to invest in as it relates to these LEED certifications.
    But that wasn't good enough. We represent as a property 
owner a de minimus amount of office space in our city. So we 
put together a work group in 2004 which came up with the first 
standards in our city's history to advance some incentives for 
green buildings, with LEED Gold certification.
    What happened in 2004 was interesting. We fast-tracked 
permits through these incentives, and we ended up having a 
bigger line, a bigger queue for people in the construction and 
building side of the ledger trying to get in the fast-track 
permits for LEED-certified buildings than in the traditional 
lines at our Department of Building Inspection. And it occurred 
to us then that we have a much bigger appetite and a bigger 
market for this than we had realized.
    The consequence of our 2004 legislation is we decided to 
more formally advance an initiative to require all residential, 
all commercial, and all remodels that are done in the City and 
County of San Francisco to meet similar LEED certification, 
going to LEED Gold within the next few years.
    It is the most aggressive green building standards of any 
city in the United States of America. It was done with broad 
consensus and overwhelming support. In fact, perhaps after 
today, I will receive my first letter of opposition, but I have 
yet to receive a letter of opposition from anybody.
    It was an industry-led initiative, because they get it. 
They know they ultimately need to get into this business. The 
fact is, though, they need to be pushed into it. Some of the 
largest developers in San Francisco, which happen to be the 
largest developers across this country that do business in 
almost every major city, they get it. They get it, because it 
ends up costing them less, it ends up being more attractive 
from a leasing perspective, higher occupancy rates. Businesses 
get it, because that is why they want to go into these green 
buildings, because they have greater workplaces, which drives 
lower costs associated with sick days, higher morale. These are 
objective measures that have been analyzed, and I hope you have 
a chance to read some of these reports, which are 
extraordinary.
    This is inevitable, whether we like it or not. This is the 
direction we need to be going. This is not difficult for anyone 
to do.
    The idea that the private sector is just going to somehow 
do it, well, maybe. But the fact that the U.S. Government 
hasn't done it is suggestive. And if the U.S. Government won't 
do it, if you won't do it to save energy costs, and HUD won't 
do it to save on $4 billion-plus a year they are spending on 
electricity, for the life of me, I don't know necessarily how 
the private sector is going to end up doing it on their own.
    We, again, have been able to establish a framework where we 
brought parties together. We did it in an environment which was 
supportive of the private sector; didn't take anything away. We 
have done it in a way where we have raised the standards and 
raised the bar.
    Now, by the way, we are doing LEED Platinum certification 
on a lot of our new buildings, not even LEED Silver or LEED 
Gold. In fact, We have a new one. The Academy of Sciences in 
San Francisco is the largest LEED Platinum building of its kind 
in the United States, where someone well described it as 
lifting up Golden Gate Park, our park, and placing a building 
underneath it and then placing the park right back on top of 
the building.
    And already in terms of its identity, already in terms of 
its purposefulness, it is creating a lot of excitement and 
enthusiasm. And it will be now the new benchmark, the new bar 
for all subsequent construction.
    So I am just here to say we have to get over the idea that 
this is somehow extreme. We have to get over the idea this 
somehow it is even controversial in this day and age.
    And from the perspective that Congresswoman Solis said, 
this is where the jobs are coming from. This is in the 
photovoltaic and the solar and the energy retrofits. If we are 
going to get serious about green-collar jobs, get serious about 
the loss of manufacturing, get serious about environmental 
justice issues, which Ed and others will talk about in a 
moment, then we have to get serious about the opportunities as 
it relates to the green building industry.
    And I couldn't be more enthusiastic as a mayor of a city 
where the people of San Francisco get it. Republicans and 
Democrats get it. This is not about politics. They understand 
the economic imperative, they understand the moral and ethnical 
obligation, and they understand that this works.
    And so that is, in essence, what I wanted to leave you 
with.
    [The statement of Mayor Newsom follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you. I appreciate it, Mr. Mayor. That 
was great testimony.
    Now our second witness. You know, when you are thinking 
about energy efficiency, what is it that causes all these 
greenhouse gases? Well, it is keeping this room cool in the 
summer, making sure it is warm in the winter, making sure that 
the food that we eat in this building is kept refrigerated 
winter, summer, spring and fall. But if you can make it all 
more efficient, then we will be all the better off, because you 
could reduce by 30, 40 percent the amount of energy we consume.
    We have with us today the president of the American Society 
of Heating, Refrigeration and Air-Conditioning Engineers in the 
United States. And his organization, for 114 years, has been 
advancing technologies in each one of these related fields. And 
at the request of the Federal Government, his organization has 
developed the first Federal energy efficiency standards 30 
years ago, and they continue to develop new building and energy 
codes used by local, State and Federal governments.
    Mr. Peterson, welcome. Whenever you are ready, please 
begin.

                   STATEMENT OF KENT PETERSON

    Mr. Peterson. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner and members of the committee. Thank you for the 
opportunity to speak to you today about energy use, buildings, 
and the opportunities to reduce our impacts from buildings on 
our climate change.
    My name is Kent Peterson, and I am the current volunteer 
president of the American Society of Heating, Refrigerating and 
Air-Conditioning Engineers, better known as ASHRAE. We were 
founded in 1894, and ASHRAE is an international technical 
society with over 50,000 members in 140 countries. Our members 
really represent the breadth of technical professionals in the 
building industry, from building designers to building owners 
to manufacturers and building operators.
    You know, ASHRAE fulfills our mission by advancing heating, 
ventilating and air-conditioning and refrigeration technologies 
to serve humanity and promote a more sustainable future through 
not only our research, but our standards writing processes, our 
publications and our continuing education programs.
    But turning our attention on today's topic, with increased 
energy costs and climate change considerations, design guidance 
related to energy efficiency is more important than ever. 
Nowhere is it more important than in the building industry, 
given that buildings do consume roughly 40 percent of the 
primary energy in the United States.
    Today, building energy efficiency still represents a vast 
and underutilized energy resource within the United States. 
Building energy efficiency is the single most important 
opportunity for reducing global greenhouse gas emissions.
    In my opinion, today's buildings mortgage our energy and 
environmental future. In the past, our industry really focused 
on the minimum energy-efficiency requirements. But today, we 
are really focusing beyond minimum energy-efficiency 
requirements, into green buildings, what are the requirements 
for people that want to build buildings that perform much 
better than the minimum requirements required by code.
    Given the concerns regarding climate change, our industry 
really is undergoing a market transformation. It is going to 
change the way that buildings are designed, built and operated.
    In the past, we have been able to provide comfortable, 
healthy and safe buildings. But on the flip side, it is the 
energy consumed by these buildings that is helping fuel this 
new crisis. And it is a crisis of global energy availability, 
and it certainly is impacting us in the United States.
    Unfortunately, the energy consumed by these buildings is 
starting to increase. In May of 2007, it was the U.S. Energy 
Information Administration that released a report that 
projected that world energy consumption is projected to 
increase approximately 57 percent from the year 2004 to 2030. 
And while energy consumption and prices continue to rise, the 
true costs of using energy are even higher when we consider its 
impacts not only on climate change but on future generations.
    The sad thing is that most Americans know how fuel-
efficient their automobiles are but very few understand how 
much energy buildings consume. ASHRAE is working to change this 
in a variety of ways. We are developing significant 
improvements in the minimum energy-efficiency requirements in 
ASHRAE's Standard 90.1, which serves as the basis for model 
U.S. energy code for buildings today.
    We are providing for advanced energy design guidance 
through special publications, working with partners like the 
United States Green Building Council, in trying to get this 
information out to the marketplace as free resources, so not 
only building owners but building designers, architects and 
consumers understand what the possibilities are to build more 
efficient buildings than what the minimum code requires today.
    We are also in the process of developing a building energy 
label that will provide builders and occupants with a standard 
energy metric that can be easily compared across different 
building types. It is providing these minimum code requirements 
and above-code requirements is really what is critical to 
provide improved energy efficiency in buildings in the United 
States. We must continue on the path of our Nation's buildings 
to be more efficient, but it is going to require significant 
commitment from all the stakeholders.
    I offer the following recommendations to ensure that we 
meet future requirements and demands placed on our buildings. 
We really do need to adequately fund the Federal agencies to 
advance the development and enforcement of energy standards, 
guidelines and technologies.
    We should support research and development necessary for 
the development and deployment of technologies necessary to 
achieve our Nation's energy goals as we move forward. This 
includes technologies that are going to be envisioned under the 
Zero-Net-Energy Commercial Building Initiative that was 
established in the Energy Independence and Security Act of late 
last year.
    Additionally, sufficient investments are going to be made 
in research and development for renewable energy technologies 
as we strive for net-zero carbon buildings and net-zero energy 
buildings.
    We also need to enact policies and encourage individuals 
and businesses to implement energy-efficient technologies and 
practices that go beyond the minimum requirements that are 
required by the building energy codes today. This includes the 
commercial building tax deduction and setting realistic 
depreciation schedules for heating, ventilating and air-
conditioning equipment, which are currently set at 39 years.
    We need to continue to support the utilization of voluntary 
consensus standards and regulation and codes, as required by 
the National Technology Transfer and Advancement Act.
    The Chairman. If you could summarize, please.
    Mr. Peterson. Yes.
    We must apply our knowledge and experience to really 
provide effective, practical and innovative solutions as we try 
to transform the U.S.-built environment to green buildings.
    It has been an honor to testify before the committee, and I 
welcome any questions that you may have.
    [The statement of Mr. Peterson follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Peterson, very much.
    Our next witness is Edward Norton, who is an accomplished 
actor and native son of Boston. But he is here in the role of 
trustee of Enterprise Community Partners, an enterprise 
developing the first national green building program focused 
entirely on affordable housing.
    Mr. Norton has been environmentally active for many years 
and recently worked to improve the carbon footprint of the 
filming process in his upcoming movie, ``The Incredible Hulk,'' 
a green monster indeed. [Laughter.]
    So we actually have one in Boston at Fenway Park, a green 
monster. And now we have one in Hollywood that is working to 
serve as an example for other movie-makers.
    Mr. Norton, we are really honored to have you with us here 
today. Whenever you are ready, please begin.

                   STATEMENT OF EDWARD NORTON

    Mr. Norton. Thanks, Chairman Markey and all the members of 
the committee. It is a great opportunity to testify on this 
subject.
    As you said, I am testifying on behalf of Enterprise 
Community Partners. Enterprise, for those of you who don't 
know, is a national nonprofit organization whose mission is to 
ensure that all low-income people in the United States have the 
opportunity for fit and affordable housing. Enterprise provides 
financing and expertise to community-based organizations for 
affordable housing development and other community 
revitalization activities.
    We have invested more than $8 billion and created 240,000 
affordable homes, strengthened communities through hundreds of 
cities across the country. And Enterprise also works very 
closely on a bipartisan basis with policymakers at all levels 
of government to develop solutions to low-income housing needs.
    Now, I feel like I need to give a little context here. You 
gave some. If you happen to occasionally go to the movies 
during the summer recess, then you are probably wondering why I 
am here. But Enterprise was founded by my grandfather, James 
Rouse, and his wife Patty in 1982. My grandfather was a very 
well-known urban philosopher, developer, planner, and a 
champion of American cities. He was fond of saying that, ``To 
build a better city is to work at the heart of a 
civilization.'' And I have always tried to keep thinking of 
that.
    After retiring from his career in commercial development, 
he spent the remainder of his life committed to expanding 
opportunities for low-income people, and he was awarded the 
Presidential Medal of Freedom for this work in 1995 by 
President Clinton. He was a great inspiration to me, he is the 
main reason that I am here, and to all who knew him as well. 
Enterprise reflects his convictions today and his 
entrepreneurialism and his innovation.
    I worked for Enterprise for a few years right after college 
while I was moonlighting in a theater. And when the 
moonlighting started to become a paying occupation, I went on 
the board. [Laughter.]
    So I have been on the board since 2000. And my principal 
interest and contribution has been to push Enterprise to lead 
on the issue of greening the affordable-housing development 
model.
    So hopefully now nobody will write this off as Chairman 
Markey pulling cameras into his committee room and you will 
indulge me in the actual testimony.
    Obviously, all of you are well aware, as everyone here at 
the table has been saying, of the impact that residential and 
commercial buildings have on the greenhouse gas production. We 
are very pleased that the committee is focused on buildings as 
part of its leadership on climate change and energy issues 
generally. And we feel, at Enterprise, that what we can speak 
to specifically are the unique aspects of affordable housing in 
this context, which is often left out of these conversations.
    I think a lot of people assume that green practices are the 
provenance of commercial real estate, and that is absolutely 
not true, and we are determined to include affordable housing 
in this conversation.
    Enterprise recently published a white paper laying out a 
comprehensive case for connecting affordable housing to climate 
change and energy needs and solutions through a Federal policy 
platform called, ``Bringing Home the Benefits of Energy 
Efficiency to Low-Income Households.'' The paper is enclosed in 
our written testimony, so all of you have it, and I will 
address it only briefly.
    Enterprise primarily works to bring benefits of sustainable 
development to low-income people on a fairly unprecedented 
scale through something that we started called the Green 
Communities Initiative. Through Green Communities, Enterprise 
is providing funds and expertise to build and rehabilitate for-
sale houses and rental apartments that are healthier for low-
income residents and more energy-efficient and better for the 
environment.
    Green Communities homes are built according to our Green 
Communities criteria, which, before LEED even, was the first 
national framework of standards and practices for green 
affordable housing. We have invested over $570 million in this 
initiative and have built 11,800 affordable green homes in 28 
States, as of now.
    We feel we have gained a couple of key insights through the 
work.
    The first is that green and affordable are not just 
intertwined but that they are, in fact, inextricably linked 
agendas, insofar as low-income people and communities suffer 
disproportionately from housing challenges, energy costs and 
effects of climate change.
    The good news is that we can now demonstrate very 
conclusively that those agendas to create and build green and 
meet affordable-housing demand can be one and the same. We can 
show that the costs are only about 2 to 4 percent higher, and 
that this premium tends to come down for developers as they 
gain experience.
    We can show that most of the marginally higher costs 
attributable to these measures generate financial savings for 
low-income families, to whom those savings definitely matter 
the most. In other words, those techniques do pay for 
themselves in an affordable context, and usually very quickly.
    We can show that greening affordable development at scale 
does result in measurable improvements in health and reduced 
health-care costs, especially asthma; that green and affordable 
housing at scale reduces carbon emission very measurably. And 
the evidence to back these assertions is included also in the 
written statement that we have given you.
    The other key insight that we have derived pursuing these 
goals is that Federal leadership is essential and that a 
national commitment to this agenda in affordable housing is 
sorely lacking. We need national, bipartisan commitment to this 
effort.
    Our 10-point plan lays out key elements of what we think 
that commitment should entail, and it is included in our 
statement. But in the broad strokes, a Federal commitment of $5 
billion a year over 10 years could deliver huge benefits across 
the board: 25 to 40 percent energy savings in up to 25 million 
residential units; up to 50 million tons of carbon dioxide 
emissions avoided; and hundreds of thousands of green jobs 
created annually.
    This Federal commitment is relatively modest if one 
considers that HUD, as Mayor Newsom mentioned, currently spends 
more than $4 billion annually just to pay utilities in very 
inefficient, Government-assisted properties. $5 billion is a 
very small share of the projected revenues that would be 
generated under proposals to curb greenhouse gas emissions 
currently under consideration in Congress and supported by all 
three major presidential candidates.
    The solutions are definitely available, but there is no 
more time, we feel, for small-scale, incremental progress. We 
think that policymakers need to act with urgency and 
seriousness of purpose, for starters. Congress just simply 
should not allow taxpayer funds to support building of any kind 
that does not meet a more demanding minimum standard for energy 
efficiency and indoor air quality and lower carbon emissions.
    To wrap it up, I mean, to make it a more personal 
statement, I am sure that many of you saw, as I did, the recent 
paper that was submitted by NASA's chief climatologist, James 
Hansen. I met him with Congressman Markey, the other day.
    The abstract attached to it argued that, and I will quote 
him, ``If humanity wishes to preserve a planet similar to that 
on which civilization developed and on which life on Earth is 
adapted, paleoclimate evidence and ongoing climate change 
suggests that CO<INF>2</INF> will need to be reduced from its 
current 385 parts per million to, at most, 350 parts per 
million.''
    And that is a tough diagnosis, and it is a monumental 
challenge. So the significance of these issues that you are 
debating really can't be overstated.
    We talked about this at the Earth Day rally, the other day. 
I think that every generation is called on in different ways to 
serve a higher purpose. I think I am the youngest person at the 
table, and I wanted to comment that my grandparents' generation 
rose up, faced a great war against fascism and totalitarianism. 
My parents' generation carried the torch of civil rights and 
social equality. I have very little doubt, personally--I am 38 
years old--I have very little doubt that the legacy of my 
generation is going to hinge on how we respond to these 
revelations that we are not living sustainably and that we are 
altering the environment.
    And I feel very confident in saying that my generation and 
even those younger than us have truly embraced this as our 
cause and that we are ready to rise to this challenge. But 
bluntly, we are not yet running things; you are. And this is a 
problem, because the scale of this challenge is going to 
require bold action on a national level. And our generation 
does not want to be told to ``go shopping'' right now. We are 
ready to sacrifice, as our parents and grandparents did. We 
want to do nation-building, but we want to start at home by 
playing our part in creating the next prosperous American 
century.
    But somebody has got to call on us to do this by defining 
this as a test of our American character, much as Lincoln and 
Franklin Roosevelt and John F. Kennedy and other great leaders 
did in their time. And we need it clearly articulated as a 
national priority, and we need the bar set very high, much 
higher than it has been, because timidity is going to squander 
our generation's resolve and resourcefulness.
    So all of us at Enterprise commend you for convening this 
hearing, and we are available to answer any questions. Thank 
you for the opportunity.
    [The statement of Mr. Norton follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Norton, very much.
    In fact, your grandfather, James Rouse, came to Boston in 
the middle of the 1960s and looked at our oldest buildings--
Fanueil Hall, Quincy Market--and said, ``We can take those old 
buildings and redesign them for the 20th and the 21st 
century.''
    Mr. Norton. He would have done them more efficiently if he 
had known what we know now.
    The Chairman. But even with his vision, though, he did that 
in Baltimore. He went city after city and took the oldest 
structures and redesigned them for the new era. And you are 
here following in his footsteps, asking for us to do it once 
again for the 21st century, and we thank you.
    Mr. Norton. Thanks for the opportunity.
    The Chairman. Our next witness, Michelle Moore, is senior 
vice president of policy and market development of the U.S. 
Green Building Council. This council develops the LEED 
standard, one of the most popular green building certification 
programs in the country.
    We welcome you, Ms. Moore. Whenever you are ready, please 
begin.

                  STATEMENT OF MICHELLE MOORE

    Ms. Moore. Thank you very much. And thank you so much not 
only for giving us the opportunity to address you here today 
with so many colleagues and leaders from around the world on 
this topic, but also for your explicitly stated intent to raise 
the level of awareness of green buildings as a source of 
solutions for climate change, for energy and a myriad of other 
issues.
    As Americans, we spend 90 percent of our time indoors. Our 
buildings have an extraordinary, if little understood, impact 
on our health and well-being. And there are so many issues that 
they are able to help us address.
    So, to begin with, just a little bit about the U.S. Green 
Building Council. We are a 501(c)(3) nonprofit organization. We 
have been in existence for about 15 years. And USGBC's mission 
is the market transformation of the built environment to 
sustainability. And that concept of market transformation is 
extraordinarily important in understanding the intent and, 
really, the uses of the LEED green building rating system, 
which many of the other speakers here today have referenced.
    Our membership is composed of, to date, about 16,000 
organizational members. So those are companies, educational 
institutions and governmental agencies who are a part not only 
of USGBC as an organization but who also participate in the 
consensus process that develops and advances the LEED rating 
system.
    Our vision in creating LEED and our intent in its use is 
that it would set a high bar, challenge the leaders and 
innovators in the marketplace to achieve it, and, in doing so, 
gradually raise the floor of the industry.
    Now, in the climate in which we currently exist, obviously 
the U.S. Green Building Council feels a tremendous sense of 
urgency associated with energy and climate, again, like so many 
of the colleagues on the panel here today. And that sense of 
urgency is expressed in our work.
    And if you had an opportunity to read the written testimony 
that I shared, there has been extraordinary growth in the green 
building marketplace, certainly over the course of the past 8 
years since the introduction of the LEED green building rating 
system.
    USGBC's growth is a reasonable proxy for understanding how 
the market has been pacing forward, by every measure, by 
registered and certified buildings, membership in USGBC, or 
LEED-accredited professionals in the community. So these are 
professionals from the engineering community, from the 
architectural community who have committed themselves to 
greener buildings. It has been doubling at the rate of about 
50--well, every 2 years, doubling every 2 years, growing at a 
rate of 50 percent a year, which is good, but it is not enough 
in terms of what we need to achieve in a very short period of 
time.
    Other statistics in terms of market growth that I think are 
important to understand are that McGraw-Hill projects that by 
the year 2010 there will be about a $60 billion marketplace for 
green building products and services. So all of the projections 
that we have heard about the potential for green job creation, 
for driving tremendous innovation and entrepreneurialism in our 
economy around the building sector, which is 14.7 of U.S. GDP 
and generates 9 million American jobs, are coming true today.
    But the single greatest obstacle to that is the perception 
that, to do something good, to do something better, to do 
something that is better for the environment, it is going to 
cost you a pound of flesh.
    And if you look at some of the research that has come out, 
even over the course of the past year, about perceptions of 
green building, while there is an increasing understanding 
that, indeed, it does save money, and if there is a first-cost 
premium associated with building green--and the research out 
there right now says that that first-cost premium typically 
stands at 1.5 percent of total cost--it is paid back within the 
first year just based on utility savings. But the challenge is 
that the vast majority of the population, even in professional 
communities, overestimate that first-cost premium by more than 
300 percent. So it is a mindset that needs to be transformed 
through demonstration, through research, through case 
histories, that could make a tremendous impact in accelerating 
change.
    Most of what we have talked about here today so far have 
been new buildings, you know, how to really change the impact 
of new structures that are being built today in America--homes, 
schools, commercial buildings, governmental buildings--can 
make. We would put forth that the single greatest opportunity 
that we have is with our existing building stock. It is 90 
percent of the opportunity, quite literally.
    And a recent McKinsey study that was published put forth 
that it was a negative cost, which I guess means a profitable 
opportunity for CO<INF>2</INF> emissions reductions--negative 
cost is kind of a funny way to say that. We can actually make 
money and generate jobs and generate economic opportunity by 
investing in the buildings that we already have. That is true 
in the commercial space, and that is true in the residential 
space as well.
    It is not as sexy as solar panels. And it takes a lot of 
additional training, you know, people whose skills we don't 
have today, but it is an enormous opportunity. We have done 
some initial calculations, and it suggests that 1.2 million 
jobs could be generated by a complete commitment.
    I would like to close just by offering one additional 
important focus, and it is a focus that Congresswoman Solis 
brought up early on, and that is our schools. In the commercial 
marketplace, our schools are the single largest market sector. 
It is a $37 billion marketplace this year alone. And 20 percent 
of America goes to school every day.
    Congress has taken a leadership position on this with the 
Green Schools Caucus, which many members of this committee have 
joined as well. But it is an extraordinary opportunity not only 
to dramatically reduce CO<INF>2</INF> emissions, dramatically 
reduce energy consumption, but, to Edward Norton's point, 
demonstrate in very concrete terms to the next generation that 
we have a real commitment to a more sustainable future.
    Thank you.
    [The statement of Ms. Moore follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Ms. Moore, very much.
    And our final witness is Tony Stall, who is the vice 
president of marketing for Dryvit Systems, Incorporated. Dryvit 
is a Rhode Island-based company that has been building exterior 
insulation and finishing systems for over 30 years. This 
Outsulation offers improved insulation and energy efficiency 
benefits.
    We welcome you, Mr. Stall. Whenever you are ready, please 
begin.

                    STATEMENT OF TONY STALL

    Mr. Stall. Thank you, sir.
    Before I begin, I would like to thank Mr. Norton for, as he 
wondered aloud if he was the youngest member at the table, you 
did glance in my direction. [Laughter.]
    And I know you were looking at Ms. Moore, but I am 
flattered by that, as well as flattered to be in your presence 
and included among you. So thank you.
    And thank you, Mr. Chairman and Ranking Member 
Sensenbrenner, for the opportunity to address this committee on 
the issue of energy efficiency in construction and strategies 
to reduce carbon dioxide emissions, both of which are inherent 
benefits of the exterior cladding system manufactured by my 
company.
    I would also like to offer special thanks to Congressman 
Sullivan, who last year visited our Oklahoma office and greatly 
impressed me with his sincere interest in both our company as 
well as the contributions our products can make toward 
improving the environment and, importantly, our national energy 
security. Thank you.
    Headquartered in West Warwick, Rhode Island, Dryvit also 
owns manufacturing facilities in Georgia, Oklahoma and 
California, as well as in Poland, China and Canada. Our parent 
company, RPM, is a publicly traded American company which owns 
major construction-related brands, such as DAP, Rustoleum, 
Zinsser and Tremco. Seventy-five percent of Dryvit's business 
is in the United States, on new construction as well as in the 
renovation of older structures.
    Ours is not a new or unproven technology. In 1969, we 
brought the concept of a highly energy-efficient exterior 
cladding system to the United States. This system, as its name, 
Outsulation, suggests, is uniquely defined by the placement of 
the insulating component of the system on the exterior of the 
wall. That is where building science has proven it to be most 
effective.
    Dryvit Outsulation Systems have been used on over 400,000 
structures in North America. A vast majority of the Nation's 
architects and general contractors have specified and used 
Dryvit claddings over the past 40 years, in both private- and 
public-sector construction, residential and commercial, in all 
50 States as well as around the world.
    Dryvit Outsulation Systems have been a popular choice for 
building owners because they are design-flexible, durable, 
cost-efficient, and, most effective, more energy efficient than 
any other common exterior cladding system available today.
    This energy efficiency is validated by the Oak Ridge 
National Laboratories, which evaluated seven common cladding 
systems: brick, stucco, glass, concrete, wood, masonry, and the 
Dryvit Outsulation System. Their findings are extremely 
compelling: Our system tested 84 percent more energy-efficient 
than next-best, 84 percent. What does that translate into for 
the building owner? An average energy savings of between 20 and 
30 percent. That is a significant benefit and one that can 
contribute enormously to meeting our national energy policy 
objectives.
    Approximately 80 percent of buildings and virtually all 
those built prior to 1970 are more poorly insulated than 
required by current building codes. That is a significant 
problem when you consider that the USGBC asserts that more than 
40 percent of all energy used in the United States is used to 
heat, cool and operate buildings.
    Developing cost-effective energy-efficient strategies for 
both new and existing buildings are of the highest national 
priority. We can immediately and meaningfully reduce our 
dependence on foreign, nonrenewable energy sources by raising 
standards for the energy efficiency of all types of buildings.
    Importantly, such policies need not be more expensive to 
building owners, residential or commercial. While precise costs 
are variable to geography and project conditions, Dryvit 
Outsulation Systems are a cost-effective method of achieving 
greater energy efficiency.
    In a case study developed by a Nashville architect, 10 
percent of the shell construction costs on a typical three-
story office building were saved by substituting our 
Outsulation Systems for masonry. This amounted to $570,000 in 
savings on a $5 million shell, a savings in concrete, steel, 
cladding, and HVAC systems.
    Energy savings, however, are only half the story. The other 
half involves our carbon footprint. We have always known that 
Outsulation Systems reduce energy use.
    What we did not know and needed to find out was whether the 
energy needed to create, transport, and recycle our products 
was greater or less than the energy saved by using them. To 
determine this, we turned to the National Institute of 
Standards and Technology, a division of the U.S. Commerce 
Department. NIST conducted a full 50-year lifecycle analysis, 
cradle to grave, of all Outsulation system components, 
including the expanded polystyrene insulation. In nearly every 
category considered by NIST, the Outsulation systems were 
superior to all other tested claddings. Put it in terms we can 
all understand, Outsulation systems produced an overall 
lifecycle carbon footprint more than seven times smaller than 
brick and five sometimes smaller than stucco.
    The Chairman. If you could conclude, please.
    Mr. Stall. I would like to conclude, Mr. Chairman, by 
thanking you and your colleagues again for your time and the 
opportunity to share this vitally important information with 
you. Cladding systems that place insulation on the outside of 
the wall have been proven by independent U.S. Government 
agencies to be significantly more energy efficient, and leave a 
significantly smaller carbon footprint than those that do not.
    With that in mind, I encourage you to strongly consider 
both simplifying existing guidelines as well as recommending 
additional legislation which will provide incentives to 
building owners that choose to invest in building technologies 
that have already been proven to significantly improve energy 
efficiency and reduce carbon emissions. Current technology can 
accomplish these goals. Building green with the right mix of 
products does not have to cost more. It is responsible economic 
and environmental policy to encourage the use of these 
technologies to every possible extent. Thank you.
    [The statement of Mr. Stall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Stall, very much.
    The Chair will now recognize himself for a round of 
questions. And again, my mother always used to say, Eddie, you 
have got to learn how to work smarter, not harder. And she 
would always say that immediately before she said that she was 
going to donate my brain to Harvard Medical School as a 
completely unused human organ. But, essentially, her message 
was, let's just be more efficient. Think smarter here. Why 
waste energy, money, time when you can be smarter?
    So, Mayor Newsom, you heard the debate here. Let's just 
leave the private sector go and do it. You don't need any 
regulations. You don't need any government intrusion. Now, if 
you had not acted, Mr. Mayor, what had been the case before you 
had put all of these new codes and regulations on the books?
    Mr. Newsom. I appreciate the spirit of the debate, and I 
appreciate the question. And the reality is they just simply 
weren't doing it. They were constructing to old standards. The 
designers and architects weren't working together, weren't 
coordinating, weren't collaborating. Engineers were in a silo. 
And folks just weren't focused on it. In fact, a lot of 
developers, they are not operating or managing the buildings. 
They are just happy to get a product up and gone, and then some 
new independent manager comes in, and they just pass through 
the energy costs to the businesses. So the fact is there was 
really no incentive.
    So when you get everybody in the same room and you start 
creating some rationale on these things and explaining those 
costs, and the fact they are going to be borne down the line, 
and be borne in ways that are actually not economic stimulus, 
meaning they are going to actually hurt our economic output and 
the economy, then folks start saying, well, wait a second. You 
are telling me 1 percent, 2 percent. I have stats. We have a 
new study came out zero to 2 percent, meaning de minimis. Some 
as high as 2 to 4 percent. The reality is there is not much of 
a cost differential. It is the quality of imagination. That is 
all that's missing here. Common sense. As you say, work 
smarter, not harder. So the fact is, as we push people 
together, as we force them to think differently, they are 
acting differently, and they are happy to do it.
    Private sector is a hundred percent on board. And we have 
some of the exact same developers in every one of your towns 
that say you know what, we get it. And we get it because we 
have a better product that we can insure for less money, 
operate for less money, get better workforce by getting better 
businesses here. It is a win-win.
    The Chairman. Thank you, Mr. Mayor.
    Mr. Norton, when people think about low-income housing, 
they say, well, let's kind of spend less money on it, and it 
won't be some big luxury home. But how can you make something 
efficient with green technologies if you can't spend money on 
it? What is the rationale? Can you explain it to the committee 
so people can understand why it makes sense to make these low-
income units green?
    Mr. Norton. Well, there are lots of easy ways to make low 
income green. And in a strange way, low-income development, 
good low-income development, has always been more efficient in 
the sense that most good nonprofit community development of 
housing has involved efficiency training anyway for the 
economic reason that the people in the lowest income brackets 
need the most relief from the high nut of home energy use and 
things like that. That is increasingly true as energy costs 
rise. Obviously, people in the lowest income levels are 
suffering disproportionately from increasing energy costs.
    But to your point, efficiency, there are lots of ways to 
make a home more efficient that are not high cost premium 
items, from the materials that are used to the efficient 
appliances, the Energy Star appliances that are coming on line, 
and frankly just training people. Someone mentioned it, many 
people just aren't aware how they are using energy in their 
home. They are aware what their car mileage is but not how they 
are using energy in their home.
    But, as Mayor Newsom was saying, we are finding, in the 
affordable housing context, it is the same. There are a lot of 
the same misperceptions that the various things that go into 
making the footprint more efficient have a high-cost premium on 
them. And we are finding also that it is in the 1 to 3 percent 
range and, as I mentioned, tends to drop with the learning 
curve. I think it is one of the most salient points; I heard 
three different people say it, the bottom line, the impact on 
the bottom line argument is based on a lot of outdated 
information I think. The assumption that these techniques carry 
a high-cost premium is sort of a canard at this point that 
shouldn't be indulged too much longer.
    The Chairman. Let me ask one final question on my round. 
And that would be to Mr. Peterson, Ms. Moore, and Mr. Stall.
    You heard Mayor Newsom talk about his regulations and how 
it telescoped the timeframe to get the real benefits. And then 
once everyone was in, they realized they were benefitting from 
it. Do you think that it is good to have regulations on the 
books that then everyone understands? Does that help to 
accomplish these goals, or should we just leave it wide open to 
every single citizen of our country and private sector 
individual to move forward on their own pace?
    Are regulations necessary, Mr. Peterson?
    Mr. Peterson. I believe that regulations offer the ability 
to set goals for people in our industry. And as we talked about 
with green buildings, we are changing the way that we design 
and construct buildings.
    The Chairman. So the answer is yes.
    Mr. Peterson. The answer is, it will accelerate the 
marketplace by setting regulations.
    The Chairman. Thank you.
    And ultimately help, not hurt those who are affected by the 
regulations.
    Mr. Peterson. That is correct.
    The Chairman. Ms. Moore.
    Ms. Moore. The consensus process that Mayor Newsom 
described I think is extraordinarily important.
    The Chairman. But then the consensus has to be made the 
regulation. You agree with that?
    Ms. Moore. Consensus has to drive local decisions.
    The Chairman. Okay. Great.
    Mr. Stall, would your company be better off if we had a 
national standard that everyone had to meet? How wealthy would 
you become and how fast?
    Mr. Stall. First of all, there are many standards that 
apply to exterior cladding systems such as we make. I mean, the 
code testing that is required to become compliant----
    The Chairman. Is that good?
    Mr. Stall. I believe that is very good, because it acts on 
public safety.
    The Chairman. Good. That is all I need to hear.
    My time has expired. Let me turn and recognize the 
gentleman from Oklahoma, Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Mayor, I was going to ask, you said a lot of good things, 
what about like low income people that their houses aren't very 
efficient, do you have any innovative programs to address how 
they can afford to maybe update their homes?
    Mr. Newsom. Yeah, we are very proud, we have a Power Savers 
Program. We have other programs with our utility, PG&E, Pacific 
Gas and Electric, and our California Public Utilities 
Commission, which have been remarkable partners that go in 
doing energy audits in low-income communities primarily as well 
as small businesses. And we have all kinds of grants that are 
provided by the private sector that basically make it de 
minimis again. The cost is pretty negligible to retrofit. So 
we, as a consequence, have been fortunate enough that we have 
done so much on CFLs that we are now restricting certain types 
of CFLs. So we are moving beyond the incandescent-compressed 
fluorescent debate to what kinds of CFLs we are using by 
eliminating T-12s and requiring now T-8s and moving toward 
LEDs.
    But the point I really want to underscore is Ed's point, 
the issue of environmental justice and the fact that the 
environmental movement in this country looks a lot like us, and 
the fact that four out of five toxic waste dumps in this 
country are in African-American communities. And here we are 
subsidizing $4 billion a year in HUD for utilities. I mean, the 
idea that Republicans, not just least of which Democrats, would 
sport with these increased utility costs; that kind of subsidy 
is beyond me. It puts pressure on municipal government, puts 
pressure on Federal and State government to increase taxes. And 
that is why I think the issue of particularly linking these 
requirements that focus on your question of how we can address 
low-income communities and how we can insulate, literally and 
figuratively, the costs that would otherwise be borne by people 
on fixed income by investing up front in quality construction I 
think is self-evident. I think it is an easy question to 
answer.
    Mr. Sullivan. Are people taking advantage of it now?
    Mr. Newsom. Unbelievably so. And it is something we market 
consistently. And we are very proud of the programs. Yes.
    Mr. Sullivan. And Mr. Peterson, and I guess Ms. Moore, does 
your organization support any mandates, I guess national, State 
or local, for the LEED rating system or certification program?
    Mr. Peterson. I will speak, obviously first, for my 
organization. My organization actually writes most of the 
standards. They are consensus-based standards by which the LEED 
rating system is modeled after. And so we write the energy 
efficiency standards for buildings. We are working with the 
United States Green Building Council with a new high-
performance green building standard that could be a standard 
adopted by local jurisdictions for minimum requirements for 
green buildings also.
    Ms. Moore. From our perspective, as I mentioned earlier, 
LEED was developed as a voluntary rating system for green 
buildings. And in many leadership-oriented communities, like 
San Francisco, they have made a decision to move from 
incentives-based programs like permitting, which is low or no 
cost for the city and puts a lot of money back in the 
developers' pockets to create that reason to go green, to a 
community consensus-based decision to adopt LEED across the 
board. Now a couple of years ago when USGBC decided to partner 
with ASHRAE to create Standard 189, we did so explicitly 
because we thought the market was at a place at which there 
needed to be that minimum standard that could set the level 
floor for the level of green building achievement that any 
commercial construction should be able to hit. And I believe 
that that standard will be completed and available in the 
marketplace sometime early next year.
    Mr. Sullivan. And, Mr. Stall, did you bring a piece of 
Dryvit with you?
    Mr. Stall. I did not, sir. I am sorry.
    Mr. Sullivan. I was just going to ask if you could, let's 
say I have an old house and I want to save on my electric bill, 
heating, cooling my home, it is a typical wood, I guess, house, 
how would your product be applied to it? What would you do? And 
just how much would it cost for I guess just a small house to 
have that done?
    Mr. Stall. Well, costs are of course variable according to 
the job.
    Mr. Sullivan. Sure.
    Mr. Stall. You are looking at an average of probably 
between $5 and $10 a square foot, depending upon the design you 
ultimately wanted. You may be doing other things to your home, 
such as changing windows, improving the sealants that may be 
old and may need remodeling. You may be changing your roof. You 
are probably going to involve an architect. If all you wanted 
to do was add Outsulation to the exterior of the home, you 
would need only contact Dryvit to start the process. And we 
would have a trained applicator out there looking at what 
needed to be done and coming up with a quote and----
    Mr. Sullivan. Just putting that on, though, that would be 
significant, just applying that to the outside of the home, 
wouldn't it?
    Mr. Stall. It would probably be, for a couple of thousand 
square feet on the exterior of a home, it would probably take a 
couple of weeks to do. Not a complicated process.
    Mr. Sullivan. And how is it applied to let's say a house? 
You have the wood. Does the wood have to be taken off or----
    Mr. Stall. Typically, the cladding, the exterior cladding, 
would be removed down to the substrate, which would likely be 
plywood or OSB. And then the expanded polystyrene insulation 
board would be attached directly to the plywood.
    Mr. Sullivan. It is a neat product. I think it is a 
wonderful innovation. I appreciate you being here.
    Mr. Stall. Chairman, if I might, you asked a question 
about----
    The Chairman. The gentleman's time has expired. The 
gentleman's time has expired.
    But you should be proud, Mr. Stall, because on C-SPAN you 
just had the first commercial infomercial in C-SPAN history. So 
you should be happy right where you are right now.
    Let me turn here and recognize the gentleman from Oregon, 
Mr. Blumenauer.
    Mr. Blumenauer. Political infomercials don't count.
    I appreciate the testimony here talking about the impacts. 
I think the reference several of you made to $4 billion that 
the Federal Government is currently spending on utilities, I am 
very interested in the thoughts that you have about how we 
would redirect this, how we get the people to have government 
leading by example to actually bring this to pass. Any thoughts 
and observations?
    Mr. Norton. Well, there is a forthcoming piece of 
legislation from Representative Perlmutter, I believe----
    Mr. Blumenauer. Right.
    Mr. Norton [continuing]. That is entitled the Green 
Resources for Energy Efficient Neighborhoods Act, which is an 
attempt to just basically legislate that HUD can incorporate 
environmental priorities into its various programs. For 
starters, just to have HUD actually----
    Mr. Blumenauer. You would rather have us change that to 
``should'' or ``will.''
    Mr. Norton. Yeah, I would.
    Mr. Blumenauer. Is there any reason that we don't mandate 
that?
    Mr. Newsom. I am at a complete loss. I mean, if the idea is 
to reduce the costs of government, and here you have one of the 
easiest ways to reduce the cost of government, and everyone 
says, my gosh, this is very challenging and difficult. I mean, 
this is simple. You know, with all due respect, I am 
dumbfounded and at a complete loss when we are down at the 
local level where we can do it in dysfunctional cities like San 
Francisco.
    Mr. Blumenauer. Your words, not mine.
    I appreciate, Mr. Norton, your referencing that bill. I 
think we are ready to introduce it this next week. And I think 
Mr. Perlmutter and Mr. Hodes have done a great job. I am 
planning on being an original cosponsor of it.
    This notion, though, of having a mandate, none of you would 
object to mandating the Federal Government have the highest 
standards?
    Ms. Moore. Congressman Blumenauer, if I might add, there 
are about a dozen Federal agencies that have taken very far 
forward leadership positions today in green building practices. 
It hasn't been adopted across all Federal buildings obviously, 
but the Department of Energy, for instance, was one of the 
earliest investors in the development of the LEED rating 
system, and helped to advance it. And GSA is doing 
extraordinary work as well that is exemplary.
    Mr. Blumenauer. I guess what drives me crazy, I am as 
incredulous as some of our witnesses, I have been in Congress 
13 years; we have been having these conversations. We still 
don't have a uniform policy. The Federal Government is the 
largest consumer of energy in the world. We are not setting the 
bar very high. And it frustrates me. One other area, you 
mentioned issues that deal with low-income consumers. And I 
appreciate you referenced Mr. Rose, who was part of a panel we 
had last week here.
    Mr. Norton. You are talking about Jonathan Rose, who is 
also on our board. Yeah.
    Mr. Blumenauer. Jonathan Rose does a great job on your 
board. We have got people back home that are committed to 
actually having buildings that generate more energy than they 
use, that use more waste than they produce. So we know kind of 
what to do with it. Is there an opportunity to go to the 
private sector in terms of the private utilities that are 
trying to figure out how to use, how to meet the needs that are 
coming down the line, and give them a higher rate of return on 
projects, insulation, swapping out hot water heaters? And 
nobody in America should have an electric hot water heater 
bubbling away while they are not home, for instance. Is there a 
role for the regulatory process with utilities themselves to 
accelerate, to jump-start this?
    Mr. Peterson. Utilities play a very important part in 
actually implementing these strategies. Especially in my home 
State of California, as the mayor would tell you and he did 
actually indicate, utility companies need to understand that 
energy efficiency is the first measure in providing return to 
their investors. And in many States, as I travel across the 
United States, many States have not understood that business 
model yet.
    Mr. Blumenauer. I guess my question is, shouldn't we be 
pushing to make that a part of the State regulatory framework 
and maybe have some FERC incentives?
    Mr. Peterson. I believe that we need to mimic some of the 
lessons that have been learned in the State of California and 
some of the other States with respect to the public utilities 
on what energy efficiency offers for the return on investment 
of those investors in those utilities.
    Mr. Newsom. And California is a great example, where we are 
incentivizing our public--through the California Public 
Utilities Commission, is incentivizing utilities like Pacific 
Gas and Electric to do the right thing. They make money by 
doing the right thing. And it is an extraordinary successful 
model.
    Mr. Blumenauer. I see my time is wrapping up. Could I leave 
a question for you to ponder and perhaps share with us at a 
later date? I mentioned the location efficiency. We are having 
a problem where some of the most desirable, from a transit 
perspective, is the most expensive. Some of the cheapest 
housing is the most expensive for transportation. And it drives 
the greenhouse gas footprint. Any thoughts or reflections that 
you or your organizations have about ways that we might incent 
location efficiency to supplement what you are doing would be 
welcome.
    The Chairman. And if you could provide that in writing to 
the committee from your organizations, we would very much 
appreciate that.
    The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you. And I apologize for having to step 
out earlier. I didn't hear all the testimony. But I am sure--my 
staff tells me it was very much on target.
    I am concerned about the issue regarding environmental 
justice communities, and the fact when we talk about the 
environment and the greening, it very much looks like this 
room. It doesn't reflect many of the communities that some of 
the Members of Congress represent. And how do we incentivize 
our partners who want to get involved in the greening of the 
environment and our buildings? What kinds of things or action 
can the Federal Government take to help build that ability to 
have a workforce?
    And Mrs. Moore, if you could answer, and also the mayor.
    Ms. Moore. The focus on investing in green job skills 
training is extraordinarily important. The statistic I 
mentioned earlier, that 100 percent commitment to energy 
efficiency in building could drive more than a million green 
jobs. The skills that are needed to retrofit our buildings, the 
skills that are needed to retrofit our homes for energy 
efficiency aren't necessarily present in the workforce today. 
You know, any of us who live in Washington D.C., if we wanted 
to do a deep energy retrofit on our houses, market price, 
affordable or otherwise, good luck finding someone you could 
call to help you do that. There are some wonderful programs out 
there that begin to provide benchmarks, like Energy Star 
performance for homes that even work for existing structures.
    But in making an investment in the workforce, and for those 
of us who represent the nonprofit community, cultivating 
stronger partnerships with trade unions and with other 
organizations that represent the workforce that stands to 
benefit from this is very, very high on our agenda, as well as 
partnerships with Enterprise Community Partners and others who 
help bring affordability to the agenda. Because I think that we 
would all agree that we can't afford as a society to allow 
living in a green home or working in a green office to be eco-
bling.
    Mr. Newsom. Well, this is the great opportunity, is to lock 
people into the green sustainable economy that have been locked 
out of the old industrial age economy and really focus on the 
issue of environmental justice in the context of looking at its 
racial implications, and taking advantage of the opportunity to 
look at your Federal workforce dollars and your workforce 
training dollars in a way that advances that and focuses on 
underserved communities and focuses on the creation of these 
jobs that are jobs that were wisely stated earlier that can't 
be outsourced. These are the jobs that need real bodies to do 
real work within the community.
    I will just give you a brief example in San Francisco. We 
have a solar incentive program. We actually have a solar 
incentive program that will provide up to $6,000, just a cash 
rebate. That assumes, though, that the individual that wants to 
put solar on their roof gets--rather uses resources from the 
city and invests it back in through an organization that does 
workforce training targeted within ZIP codes in our city that 
are in underserved communities. You get only $3,000 if you 
don't. Meaning we are actually putting real money up. We will 
double the incentive if you go through workforce training 
programs within the city and county of San Francisco in 
underserved communities.
    So there are all kinds of ways to create incentives that 
create market decisions that are in line with I think the broad 
ideology here represented in Congress.
    Ms. Solis. Are any other cities doing that of, say, your 
size?
    Mr. Newsom. None. In fact, we very notably are proud that 
we are taking the lead on this. But there are hybrids of it all 
across the country, Portland of course being one of the most 
progressive and extraordinary examples, but in smaller ways. 
San Francisco will be the first to do that.
    Another thing I also think is important, we are about to 
replace our payroll tax with a carbon tax. We will be the first 
city in the United States to do that. Which gets into that 
whole issue of all those buildings we are not talking about. 
And we are looking to address some of the issues of inequality, 
looking at more grandfathering. We don't want to burden people 
on fixed income with an increase in their utility users tax or 
businesses in turn. And so we are looking at very progressive 
grant funds as well and other incentives that would lock into 
some of the points in question that you were mentioning 
earlier.
    Ms. Solis. Just one comment if anyone wants to comment on 
the notion of trying to create some kind of a carbon tax fund, 
investment fund that could then be made available to low-income 
communities or areas that are blighted or could be identified 
as green zones. Is there any talk about that out there in the 
private sector world?
    Mr. Newsom. That is literally what we have done. When I say 
ZIP codes, we have created zones on the basis of ZIP Codes and 
on the basis of asthma rates and all other kinds of indices 
that we have determined. One of the exciting things----
    Ms. Solis. Do you think the Federal Government should 
consider that?
    Mr. Newsom. Absolutely. Yes. I will leave it at that.
    Ms. Solis. Quickly, quickly, because my time is running 
out.
    Mr. Norton. Certainly. We feel very strongly that 
Enterprise did some of the--you know, we are exploring 
extensively the way that these investments, these initial 
investments in greening affordable housing will actually pay 
dividends, real dividends in the sense that, as the carbon 
economy becomes more defined, there might be quite a bit of 
revenue available to the nonprofits, the community development 
corporations, things like that available, you know, to come 
back to them out of the carbon economy in terms of carbon 
credits and things like that. So, literally, not just in terms 
of, is there a cost premium on it, but that there actually 
might be a return on investment over time because, you know, 
the carbon trading is here. And we are already figuring out 
ways for the low-income development community to tap that as a 
source of revenue.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you. I was struck by Mr. Norton's request 
for a challenge, you know, from Washington D.C., and his 
regretting the fact that a bunch of old guys are still running 
this joint. You know, and I just want to assure him we got 
guys, you know, Eddie Markey pushing 90, he has got some good 
ideas. Earl Blumenauer, the leader of transportation and 
planning pushing, you know, 80, and he has still got good 
ideas. So you are seeing some challenges here.
    Mr. Norton. You need to get a microphone.
    Mr. Inslee. Yeah.
    I just wondered what is the best way to frame that 
challenge? You know, I was struck by your language saying we 
need a challenge that will challenge people to the better 
angels of their nature to rise to this new enterprise. What is 
best way to talk about that? And the reason I ask you is, I 
have talked about it, and some people have criticized me the 
way I talk about it. I talk about we got to recreate the Apollo 
project. Americans still have the right stuff. This is for 
America to fulfill its destiny.
    And some people say, no, no, you should talk in some terms 
about sacrifice, that somehow we have to sacrifice. That should 
be part of the language. I just wondered, you are a master of 
the popular culture, what do you think is the right way to talk 
about this revolution?
    Mr. Norton. I am glad you brought that up. It does strike 
me, listening to the appropriate debate about the cost-benefit 
analysis and what is the best instrument of these changes, is 
it the free market, that part of what in my mind, without being 
an alarmist, what breaks the validity of that debate down is to 
some degree the environment of crisis that we are facing. I 
mean, this country has done what it needed to do historically 
when it faced crisis. And the question that--you know, the 
question that was put to the forefront was not in those 
scenarios, you know, well, should the market handle this or 
not. You know, we didn't ask if the market would handle--the 
market created the Depression. We didn't look to the market, 
the free market to fix, you know, the country in the crisis of 
the Depression. We didn't look to the free market to figure out 
how to take on the challenge of--a global challenge like World 
War II. This country has many times in its history acknowledged 
that it needed to meet a challenge that the free market was not 
the best instrument of for that.
    And I think, you know, you reference Lincoln and the better 
angels of our nature. I think that, in those moments, I think 
that people, you know, young people--my father still talks 
about being a sophomore in college and hearing Kennedy say the 
phrase, ``ask not what your country can do for you but what you 
can do for your country.'' Nobody is saying things like that to 
us. They are just not, not in a meaningful way. I think they 
are not calling--you know, people my age and younger I think 
look at government these days as an argument between parties as 
opposed to a conversation about the country. And I think that a 
framing, a framing context, framing this as an epochal 
challenge, saying this is what your grandchildren and their 
grandchildren are going to remember this era for, how you stood 
up and faced this problem, is inspiring. We want to be 
inspired. We want to be inspired by language that--and when you 
reference the Apollo project or something like that, I think 
that, at core, I do think that is a part of it. I think it is 
about leadership creating a narrative really for people, a 
narrative that gives them something to engage in, a role that 
they can play in a collective agenda.
    And I think you talk about the popular culture, the 
downside of it is the fragmentation of our popular culture, our 
national culture. It is a function of our diversity. But what 
we are missing, I think what we have been missing for a long 
time is that narrative that unites us in a sense of common 
purpose.
    Mr. Inslee. There are a couple books that I think fulfill 
that. I will give one of them after this hearing is over.
    But one other quick question, as far as greening the as-
built environment, one of the great challenge is financing 
this. You know, everybody can save energy if they will put a 
few grand down to green their house, their as-built house. But 
getting that financing is a real issue. And it seems to me that 
we need some structure of an industry who will essentially 
assume your energy ownership of your home that will in fact put 
up the capital, do the improvements, and have the homeowner pay 
what they would have paid otherwise, less some money for their 
savings over time to a company that has assumed the risks for 
the energy costs. That doesn't really exist right now. Can it? 
Should it? What do we do to get that type of structure just in 
30 seconds?
    Ms. Moore. Two quick things. One, there is some wonderful 
models that are working. In California, of course, for on bill 
financing for home energy efficiency improvements. And in the 
commercial sector, ESCOs, Energy Service Companies, that 
effectively finance investment today based upon recapturing the 
energy savings tomorrow are both models that are replicable. 
They are just not implemented in a very large scale today.
    Mr. Inslee. I will work on that.
    Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    My concern is whether or not the poorest people are going 
to also be the last people to benefit by the higher level of 
consciousness surrounding--around the environment. I grew up 
300 yards maybe from the landfill and from the waste treatment 
plant. I was in--I did my annual examination 2 months ago, and 
I was scared to death that, when the doctor called me in 
afterwards to tell me I had little scratches on my lungs, that 
he was going to say that I did in fact have some form of 
cancer, which I think has devastated my high school class.
    But we have a difficult job to do. And I am interested in 
your response to this, because I think we are going to need 
your help. Dan Quayle, former Vice President, had a grandfather 
who was a United Methodist minister. He was a master of 
elocution. He was a fabulous person. Mr. Quayle got things 
mixed up sometimes. And on one occasion, as he was trying to 
quote the theme of the United Negro College Fund, he said, ``a 
mind is a terrible thing to lose.'' And I agree with him. He 
was trying to say, ``a mind is a terrible thing to waste.'' But 
I think a crisis is a terrible thing to waste. And I think we 
are in the middle of a crisis. And I really don't want to waste 
it.
    I think it is a time that we can create consciousness about 
what is happening in the urban core, with people still today 
living close to landfills, living close to waste treatment 
plants.
    And the other part of it is there are 20,000 foreclosures a 
week in the United States, 20,000. And one of the things that I 
have been hoping for and talking about is that if we pass--
well, actually, the Senate has a bill it is struggling with now 
with FHA, but if we are going to have legislation that would 
make it more possible for FHA to come in and save homes that 
are in foreclosure and reduce interest rates and so forth, that 
maybe we ought to have another opportunity or requirement that 
we do some kind of weatherization. Because even if they save 
their home, even if we are helpful in saving their homes, Mr. 
Mayor, the other problem is they live in the oldest part of the 
city; they are going to still end up paying more money out even 
if you save your home. You are still going to be paying out 
more money because you are poorer than people who are living in 
an affluent area.
    And I guess this is more of a plea. We need some preachers, 
you know, people who are going out, talking and getting across 
the reality of what we are facing in this country.
    Mr. Newsom. It is faith and works. You need preachers and 
people to take that passion, twin it with some action and 
demonstrate it.
    Look, I think what Ed is doing with Enterprise is 
extraordinary. And this legislation is incredibly principled in 
terms of linking Federal dollars to public housing, HOPE VI in 
particular, to these green building standards. If no place 
else, we should establish some framework of some minimum 
standards with some local autonomy and some flexibility 
perhaps.
    Mr. Cleaver. We did do that on the Hope VI Program in New 
Orleans and Mississippi.
    Mr. Newsom. Perfect model then.
    Mr. Cleaver. We are requiring that all of those one-for-one 
replacements are in fact green construction.
    Mr. Newsom. And then twin it with workforce training 
dollars to get those residents working on rebuilding their own 
homes in their home communities. And I think that is then how 
you begin to reconcile some of these issues, address some of 
the institutional issues and generational issues in a 
meaningful way. But I appreciate your passion. And I know that 
Ed and others, I think everyone on this dais shares those same 
passions.
    Mr. Norton. I think you are getting into something that is 
definitely a strong point in our position paper that we have 
submitted to you, is that apart from bold, bold ideas, you 
know, paradigm-shifting ideas, there is so much in the public 
sector that you could do to easily just align existing 
incentives with these goals. And if you were to do nothing 
else, you could have your staff go back, pour through what 
already exists, what the government is already doing and bring 
the standards a little bit more in line with these things. It 
would be an incredibly effective way just to begin.
    The Chairman. Okay. The gentleman's time has expired.
    Mr. Cleaver. Thank you, Mr. Chair.
    The Chairman. And all time has expired because there are a 
number of roll calls on the House floor. So we will have to end 
the hearing.
    Here is how I would like to end the hearing. I would like 
each one of our witnesses to give us their 1-minute concluding 
statement, what you want us to remember. We are going to go in 
reverse order that we started with. And while you are thinking 
about that, I also want to thank Ann Blackwell and Design 
Within Reach for their three green chairs here. It is a start. 
Okay.
    We will begin here and try to do it for--do you want to 
come out here so we can recognize you, Ann, for your work? 
Thank you so much. We appreciate this precedent-setting set of 
chairs that we are using here today.
    So let's begin with you, Mr. Stall. You have 1 minute.
    Mr. Stall. Thank you, Mr. Chairman.
    I didn't get to comment on public policy, so now is my 
chance. When shopping for a car last week, I was offered a 
$2,400 tax credit for buying a Nissan Altima hybrid. I would 
save approximately $400 worth of gas a year by driving that 
car. You offer currently a homeowner $300 on the old energy tax 
credit for making energy conservation improvements to his home. 
By using exterior insulation, he can reduce his energy bills by 
20 to 30 percent per year, which in my State of Rhode Island, 
my heating oil costs of $8,000 per year would be roughly 
$2,000. I get a $300 tax credit to save $2,000 a year. If I buy 
a car that saves $400 a year, I get a $2,400 tax credit.
    Change it.
    The Chairman. Thank you, Mr. Stall.
    Ms. Moore.
    Ms. Moore. Given all the conversation around the room 
today, particularly about issues related to social justice, 
social equity, I would urge all of you and everyone in the room 
to remember green schools is a critical priority. There is no 
reason that today in America that every school being built 
shouldn't be green. And that every school that exists shouldn't 
be greened as well. Because, as Congressman Cleaver mentioned, 
his high school class has been decimated by lung cancer and 
other kinds of environmental issues. And this is a solution 
that we can bring today. The technology exists today, and it 
does not cost more for a healthier future.
    The Chairman. Mr. Norton.
    Mr. Norton. I think that it is terrific that you are 
focusing, within the context of the overall energy and global 
warming crisis, on the built environment. That is, I think, 
underappreciated as one of the core sources of these problems. 
I think, from Enterprise's perspective, we would like to add 
emphasis to not forgetting about the affordable housing 
development community within that built environment. Many, many 
people don't think that the affordable housing equation can 
support the same standards and practices that are going on in 
the commercial building environment, and they absolutely can. 
And so, as you look at it, don't forget about affordable.
    And in a much broader sense, as Congressman Cleaver said, 
please don't squander the opportunity of the crisis. I think, 
don't be afraid to frame these challenges in the kinds of, not 
panicky, but epochal term terms that they deserve. There is not 
a lot of time all the best minds are telling us. And I think 
for people of my generation, we want to hear it framed as a 
national challenge. We want to hear it invoked as something 
that needs to become a national priority.
    The Chairman. Thank you, Mr. Norton.
    Mr. Peterson.
    Mr. Peterson. Energy availability and climate change are a 
crisis, a crisis that is starting to grow year by year as we 
start to move forward. I would ask the panel to consider, as we 
move forward, what type of leadership we can provide in the 
United States, leadership that provides and frames what that 
cause would be for Americans, leadership that also shows what 
the challenges will be, leadership that includes vision, vision 
that goes out at least 20 years. Where will we be as a Nation 
and what type of immediate action can we start to take in order 
to lead this country towards energy independence and reduction 
in carbon emissions?
    The Chairman. Thank you.
    Mr. Newsom. Chairman Markey, entire committee, thank you. 
You give me optimism and hope. And I mean that with sincerity. 
It is not a throw-away line. And all I can say is please LEED 
by example. And what I mean by lead is not l-e-a-d. In this 
case L-E-E-D. At least create some framework for Federal 
taxpayers' dollars to do the right thing and begin to 
substantively address by example these issues and address the 
issue of environmental justice. There is nobility in that 
cause. And that is exactly the kind of leadership that you can 
do in the short run that will make a huge difference in the 
long run.
    The Chairman. Thank you, Mayor Newsom, very much.
    We thank each of you.
    And as we were at this hearing today, Secretary of Interior 
Kempthorne just announced that he is listing the polar bear as 
a threatened species under the Endangered Species Act, which 
sounds great.
    But then, he also announced that he is using a loophole so 
that he has to do exactly nothing to help the polar bear in its 
now newly established endangered species position. Not exactly 
a conversion on the road to Damascus, but consistent with this 
administration's policies of preaching temperance from a 
barstool. You cannot have a beer in your hand as you tell the 
kids it is really bad for them. You can't have a cigar in your 
mouth as you say smoking is bad for you. And you can't be out 
there preaching while at the same time saying there is no role 
for the government. Okay.
    And so what we learned here today is that if the government 
sets the standards, then the private sector will show up.
    Mr. Stall will get even exponentially richer than he is 
already. And that is a good thing, because the private sector 
will then compete to solve the problem. And that is really what 
today is all about. It is this sense of community that the 
United States has to have to solve the problem.
    This has been one of the most important hearings we will 
have during this first 2 years of the Select Committee on 
Energy Independence and Global Warming. We thank you all so 
much. This hearing is adjourned.
    [Whereupon, at 3:46 p.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
